Securities and Exchange
    Commission
   Office of Inspector General
During the first half of fiscal year 2005, the Office of Inspector
General assisted the Commission in its efforts to:

    - Strengthen Commission software management and
          controls,

    - Improve the planning of investment management filing
          reviews,

    - Enhance the integrity of the Commission and its staff by
         investigating allegations of misconduct,

    - Improve contracting controls over task orders under
          agreements with other federal agencies,

    - Enhance the management of information technology in
         Commission field offices,

    - Ensure that required steps for reviewing disgorgement
         waivers are completed,

    - Comply with the provisions of the Federal Information
         Security Management Act,

    - Properly manage wireless communication devices,

    - Complete an “As-Is” enterprise architecture in compliance
         with federal requirements, and

    - Assure the effectiveness of field office administrative
          controls.
                                                                                      PAGE 2




                                  Executive Summary
During this period (October 1, 2004 to March 31, 2005), the Office of Inspector General
(Office) issued ten audit reports and one special project report. These evaluations focused on
information technology contractor billings; enterprise architecture; enforcement
disgorgement waivers; the planning of investment management filing reviews; compliance
with the Federal Information Security Management Act; information technology
management in the Northeast and Southeast Regional Offices; software management;
administrative controls in the Fort Worth and Salt Lake District Offices; and management
of wireless communication devices. This work is described in more detail in the Audit
Program section below.
Eleven investigations were closed during the period. Two subjects were referred to the
Department of Justice, which declined prosecution of these subjects. Four subjects were
referred to the Commission. One of these subjects was counseled; the other three subjects are
awaiting disposition. In addition, one subject referred during a prior period resigned;
another was removed; and a third was suspended. The Investigative Program section below
describes the significant cases closed during the period.
Information technology (IT) management had been previously reported as a significant
problem. During this period, the Commission continued to improve its IT management, but
significant weaknesses remain. We intend to maintain our audit focus in this important
area.
An audit completed in a prior period found that Commission financial management controls
for fiscal year 2002 were effective in all material respects except for controls over property
accountability, accounting and control of disgorgements, information system and security
program controls, and the Disgorgement and Penalties Tracking System. Accordingly, we
reported these exceptions, taken together, as a significant problem. Several high-level task
forces have taken steps or are currently taking steps to correct these weaknesses. Also, the
Government Accountability Office is following-up on these areas as part of its audit of the
Commission's financial statements.
No management decisions were revised during the period. The Office of Inspector General
agrees with all significant management decisions regarding audit recommendations.



                                            Audit Program
The Office issued ten audit reports and one special project report during the reporting
period. These documents contained a total of 38 recommendations, which are further
summarized below. Management generally concurred with the recommendations, and in
many cases took corrective actions during the audits.



S E C U R I T I E S & E X C H AN G E C O M M I S S I O N                   AP R I L 2 9 , 2 0 0 5
                                                                                    PAGE 3


IT CONTRACTOR BILLINGS (AUDIT 380)
An OIG contractor evaluated the Commission’s internal controls for obtaining certain
information technology (IT) support services. The IT support services were obtained under
an agreement (task orders) with the Millennium Services Center (MSC) of the U.S.
Department of Transportation, and were provided by an MSC contractor (Science
Applications International Corporation or SAIC).
We found that for the period covered by the review, the Commission had not established
adequate controls for obtaining IT support services using a customer service agreement
with MSC. Commission officials indicated that the controls improved during the course of
the contract, including improvements made subsequent to the review period.
Specific control weaknesses with respect to the MSC customer service agreements included:
    •    Task orders were not sufficiently detailed to fully describe the Commission’s
         expectations and the oversight responsibilities of the MSC and the Commission.
    •    MSC applied a management fee on SAIC invoices before sending them to the
         Commission, but the Commission’s Contracting Officer’s Technical Representative
         (COTR) was unaware of the amount or basis for the fees.
    •    The Commission’s COTR certified invoices without sufficient supporting
         documentation. This weakness related to the decision to have MSC be responsible
         for contract administration.
We recommended that the Commission enhance existing policies, procedures, and COTR
training to improve the controls over task orders under agreements with other federal
agencies. We also recommended that the Commission request that the Defense Contract
Audit Agency (the cognizant audit agency for SAIC) perform an audit of specified task
orders under the MSC agreement.


ENTERPRISE ARCHITECTURE (AUDIT 381)
We contracted with an independent accounting firm to perform a review of the
Commission’s progress in establishing an enterprise architecture as required by applicable
guidance. The audit work was terminated early for contractual reasons.
The contractor prepared an Enterprise Architecture (EA) Management Maturity Scorecard
(as of April 15, 2004) which showed the extent of the Commission’s progress. We found that
the Commission had taken several steps towards developing and documenting an “as-is”
architecture in accordance for the most part with the Federal Enterprise Architecture
(FEA).
We recommended that the Office of Information Technology (OIT) obtain business owner
support for the “as-is” enterprise architecture; establish a communication strategy to
introduce EA successfully throughout the Commission; establish a plan to ensure proper
project management, configuration management, quality assurance, risk management, and
security; and complete the "as-is" architecture in accordance with the FEA.



S E C U R I T I E S & E X C H AN G E C O M M I S S I O N                 AP R I L 2 9 , 2 0 0 5
                                                                                    PAGE 4


ENFORCEMENT DISGORGEMENT WAIVERS (AUDIT 384)
Disgorgements represent repayment of ill-gotten gains resulting from individuals violating
the federal securities laws. The Commission seeks disgorgements to ensure that securities
law violators do not profit from their illegal activity. Payment of a disgorgement can be
either completely or partially waived based on a defendant's sworn representation of
financial condition.
As a follow-up to a prior audit (No. 311), we evaluated the adequacy of Enforcement's
written procedures for waivers and the extent of compliance with those procedures. In
response to the prior audit, the Division of Enforcement (Enforcement) issued guidance and
took other steps to improve the waiver process.
We found that further improvements in the controls and guidance for reviewing
disgorgement waivers are needed. Our recommendations included implementing controls
to ensure that required steps for waivers are completed; clarifying the guidance; and
training the staff.


PLANNING INVESTMENT MANAGEMENT FILING REVIEWS
(AUDIT 387)
The Division of Investment Management (IM) reviews investment company filings for
compliance with disclosure rules. IM’s general goals for this review include ensuring that
investment companies fully disclose their policies, procedures and risk and that their
proposed activities are consistent with the law. We evaluated the internal controls
regarding filing review planning by IM.
We found that IM could improve controls over their planning of filing reviews by identifying
and measuring outcomes from filing reviews. Our other recommendations included
developing filing review objectives; considering ways to better analyze outcome data (e.g.,
through a new or improved database); training staff on outcome measures; improving
communication between offices within IM; and including compliance monitoring plans in
action memoranda to the Commission.


FEDERAL INFORMATION SECURITY MANAGEMENT ACT-2004
(SPECIAL PROJECT NO. 391)
We hired an independent CPA firm to evaluate the Commission’s information systems
security program for compliance with the Federal Information Security Management Act
(FISMA). We provided a response to Office of Management and Budget (OMB) in
compliance with OMB Memorandum M-04-25.
We found that a material weakness and two significant deficiencies identified in a prior
year remained unresolved. The material weakness related to weak security controls within
the Commission’s financial management systems. The two significant deficiencies related
to failure to maintain a Plan of Actions and Milestones (POA&M) process, and IT security


S E C U R I T I E S & E X C H AN G E C O M M I S S I O N                 AP R I L 2 9 , 2 0 0 5
                                                                                    PAGE 5


costs not being properly identified by project, tracked, and reported in the Commission’s
Exhibits 53 and 300.
Also, we found that the Commission was not substantially in compliance with OMB
Circular A-130, Appendix III; FISMA requirements; and National Institute of Standards
and Technology guidance. Several information security issues from prior years had not yet
been resolved.
The Government Accountability Office audited the Commission's financial statements for
the first time in fiscal year 2004. During this audit, numerous findings relating to
information security were identified, including not certifying and accrediting major systems
and not creating contingency plans for major applications. These findings were considered
during our evaluation.


NERO IT MANAGEMENT (AUDIT 392)
SERO IT MANAGEMENT (AUDIT 400)
An OIG contractor reviewed Information Technology (IT) management at the Commission’s
Northeast and Southeast Regional Offices (NERO and SERO). Our objectives were to
evaluate the adequacy of NERO’s and SERO’s internal controls for IT management and
their compliance with applicable guidance. A primary focus of the review was IT security.
We briefed Commission management on our detailed findings and recommendations. We
found that IT management at NERO and SERO needed to be improved, and brought into
compliance with Commission guidance. The contractor identified numerous risks in the
offices’ IT security awareness, practices, and procedures; building security; organizational
structure; and coordination with the Office of Information Technology (OIT). As part of its
response, OIT has scheduled IT management reviews in the remainder of the Commission's
field offices.


SOFTWARE MANAGEMENT (AUDIT 393)
Under a task order with our office, an OIG contractor reviewed the Commission’s
management of its software. The review found that some controls and best practices had
been established, including a configuration management function and the tracking of some
software.
We also found that the Commission’s controls needed to be improved to meet accepted
criteria (the Capability Maturity Model), and to be in full compliance with applicable laws
and regulations. Our testing found numerous instances of unapproved software on
Commission computers and file servers.
We recommended that the Office of Information Technology assign responsibility and
improve processes for software management. Our findings related to policy guidance;
controls; record keeping; inventories; training; contractors; and performance measures.




S E C U R I T I E S & E X C H AN G E C O M M I S S I O N                 AP R I L 2 9 , 2 0 0 5
                                                                                      PAGE 6


FORT WORTH DISTRICT OFFICE (AUDIT 396)
SALT LAKE DISTRICT OFFICE (AUDIT 397)
We reviewed selected financial and administrative controls in the Commission's District
Offices in Forth Worth, TX (FWDO) and Salt Lake City, UT (SLDO). The audit scope
included the following financial and administrative functions: time and attendance;
purchasing; travel; property management; and budgeting. The purpose of these audits was
to provide the Commission with negative assurance that the internal controls were
adequate, being implemented economically and efficiently, and in compliance with
Commission policies and procedures.
During the limited audit described above, no material weaknesses in the FWDO's and the
SLDO’s financial and administrative controls came to our attention. We informally
discussed a number of non-material control weaknesses with FWDO and the SLDO, who
agreed to implement corrective actions.


MANAGEMENT OF WIRELESS COMMUNICATION DEVICES
(AUDIT 398)
Commission Regulation SECR 24-5.2 governs the use of Personal Digital Assistants (PDAs)
and similar technologies by Commission staff and contractors. We reviewed the adequacy
of this regulation and the extent of compliance with certain parts of it. We also evaluated
whether the management of wireless communication devices needed to be improved.
We found that the Commission can improve its management of wireless communication
devices. The regulation covering PDAs can be expanded or supplemented to explicitly
include cell phones and pagers, which are similar wireless devices.
Also, we found that the offices and divisions we surveyed had insufficient awareness of the
PDA regulation, and had not done enough to implement it. Most users had not signed
service agreements, office heads had not issued guidance on appropriate use of the devices,
and unannounced audits of PDA use had not been performed. Also, the Office of
Information Technology (which manages the program) did not have adequate inventory
records for PDAs. The number of unassigned PDAs (which the Commission is paying for)
could exceed Commission needs.



                                     Investigative Program
Eleven investigations were closed during the period. Two subjects were referred to the
Department of Justice, which declined prosecution of these subjects. Four subjects were
referred to the Commission. One subject of these subjects was counseled; the other three
subjects are awaiting disposition. In addition, one subject referred during a prior period
resigned; another was removed; and a third was suspended.
The most significant cases closed during the period are described below.


S E C U R I T I E S & E X C H AN G E C O M M I S S I O N                   AP R I L 2 9 , 2 0 0 5
                                                                                      PAGE 7


TRAVEL FRAUD
An investigation found evidence that a staff member had submitted numerous false or
inflated claims for expense reimbursement on travel vouchers. Other evidence disclosed
that the employee failed to use a government credit card while on official travel, misused
the government transportation subsidy, received gifts from outside sources in violation of
the Government-wide Standards of Conduct, and abused time and attendance. The
Department of Justice declined prosecution. Administrative action is pending.


MISUSE OF POSITION
An Office investigation developed evidence that a senior official had engaged in conduct
that created the appearance that the official was using public office for the private gain of a
relative. We referred the matter for consideration of administrative action.


UNAUTHORIZED DISCLOSURE
The Office investigated an allegation that a senior official had disclosed non-public
information to an unauthorized person. The evidence developed during the investigation
failed to substantiate the allegation.


INSIDER TRADING
The Office investigated an allegation that a staff member may have purchased stock based
upon insider information. Evidence developed by a joint investigation conducted with
Commission Enforcement staff failed to substantiate that the employee’s trades were based
on insider information.


POST-EMPLOYMENT VIOLATION
The Office investigated an allegation that a former staff member had communicated with a
Commission attorney on behalf of a client concerning a matter in which the former
employee had personally and substantially participated while employed at the Commission,
in violation of the restrictions on post-employment communications with the employee’s
former agency. The evidence developed failed to substantiate that the former employee had
violated the post-employment restrictions.



                                      Significant Problems
No new significant problems were identified during the period.



S E C U R I T I E S & E X C H AN G E C O M M I S S I O N                   AP R I L 2 9 , 2 0 0 5
                                                                                        PAGE 8



            Significant Problems Identified Previously

FINANCIAL MANAGEMENT SYSTEMS CONTROLS
An OIG contractor completed an audit of Commission financial management systems
controls during a prior period (Audit No. 362). That audit found that Commission financial
management controls for fiscal year 2002 were effective in all material respects except for
three material weaknesses and one material non-conformance. The exceptions concerned
property accountability, accounting and control of disgorgements, information system and
security program controls, and the Disgorgement and Penalties Tracking System. We
reported that, taken together, these financial management exceptions are a significant
problem for the Commission.
Management concurred with our recommendations to strengthen these financial controls,
and several high-level task forces have taken actions or are taking actions to correct the
weaknesses. The Government Accountability Office reviewed the corrective actions taken
by the task forces as part of its audit of the Commission’s fiscal year 2004 financial
statements.


INFORMATION TECHNOLOGY MANAGEMENT
Since April 1996, we have reported information technology (IT) management 1 as a
significant problem based on weaknesses identified by several audits, investigations, and
management studies. Significant IT weaknesses of continuing concern include IT capital
investment decision-making; information systems security; administration of IT contracts;
IT project management; enterprise architecture management; strategic management of IT
human capital; and management of software licenses.
During this period, we completed audits on IT management in two regional offices; software
management; IT contractor billings; enterprise architecture; and wireless communication
devices, as well as an evaluation of the Commission’s information security program
(required by the Federal Information Security Management Act). See the Audit Program
section for more details.
During this semi-annual period, the Office of Information Technology (OIT) continued to
correct the Commission’s IT weaknesses. OIT indicated that, among other steps, it:
               •   Filled all of the 130 management and staff positions within the Office of
                   Information Technology, including newly appointed senior managers and
                   supporting staff overseeing capital planning and investment control,
                   enterprise architecture, information security, and financial management;




1
    Formerly reported as Information Resources Management (IRM).
S E C U R I T I E S & E X C H AN G E C O M M I S S I O N                     AP R I L 2 9 , 2 0 0 5
                                                                                        PAGE 9


              •    Instituted an IT policy framework to facilitate implementing, managing, and
                   enforcing Commission-wide and OIT-specific IT governance responsibilities,
                   workflows, and activities;

              •    Instituted an integrated IT capital planning and investment control process
                   to facilitate program-oriented budgeting, program planning and execution,
                   and performance measurement;

              •    Established a Certification and Accreditation Team, which is performing
                   certifications on major Commission applications; and

              •    Developed and implemented an integrated IT security monitoring capability,
                   an employee security awareness program, and a detailed remediation plan to
                   address a series of known security issues uncovered during a recent GAO
                   audit.

Although OIT continues to take action to correct the identified IT weaknesses, we still
consider IT management to be a significant problem. We intend to continue our oversight
of this area.



                                    Access to Information
The Office of Inspector General has received access to all information required to carry out
its activities. No reports to the Chairman, concerning refusal of such information, were
made during the period.



                                               Other Matters

AUDIT OF COMMISSION FINANCIAL STATEMENTS
Under the Accountability of Tax Dollars Act of 2002, the Commission is now required to
prepare audited financial statements. The Office of Management and Budget had waived
this requirement for fiscal years 2002 and 2003.
The U.S. Government Accountability Office is performing the initial financial statement
audit of the Commission for fiscal year 2004, and is expected to perform the audit for fiscal
year 2005 and beyond.


EXTERNAL COORDINATION
The Office actively participates in the activities of the Executive Council on Integrity and
Efficiency (ECIE). The Inspector General attends ECIE meetings, is an active member of
S E C U R I T I E S & E X C H AN G E C O M M I S S I O N                     AP R I L 2 9 , 2 0 0 5
                                                                                PAGE 10


its Financial Institutions Regulatory Committee, and serves as the ECIE member on the
Integrity Committee (established by Executive Order No. 12993).
The Deputy Inspector General is an active member of the Federal Audit Executive Council
(FAEC). The FAEC considers audit issues relevant to the Inspector General community.
The Counsel to the Inspector General is an active member of the PCIE Council of Counsels.
The Council considers legal issues relevant to the Inspector General community.




S E C U R I T I E S & E X C H AN G E C O M M I S S I O N               AP R I L 2 9 , 2 0 0 5
                                                                                     PAGE 11




                                       Questioned Costs

                                                                        DOLLAR VALUE
                                                                       (IN THOUSANDS)


                                                                    UNSUPPORTED            QUESTIONED
                                                           NUMBER      COSTS                 COSTS
A          For which no management decision
           has been made by the
           commencement of the reporting                        0           0                            0
           period

B          Which were issued during the
           reporting period
                                                            0           0                            0

           Subtotals (A+B)                                      0           0                            0

C          For which a management decision                      0           0                            0
           was made during the reporting
           period

    (i)    Dollar value of disallowed costs                     0           0                            0

    (ii)   Dollar value of costs not                            0       0                                0
           disallowed

D          For which no management                              0       0                                0
           decision has been made by the end
           of the period

           Reports for which no management                      0       0                                0
           decision was made within six
           months of issuance




S E C U R I T I E S & E X C H AN G E C O M M I S S I O N                    AP R I L 2 9 , 2 0 0 5
                                                                                    PAGE 12




                 Recommendations That Funds Be Put To
                           Better Use
                                                                      DOLLAR VALUE
                                                           NUMBER    (IN THOUSANDS)
A               For which no management decision
                has been made by the commencement
                                                                 1           132
                of the reporting period
B               Which were issued during the
                reporting period
                                                             0              0


                Subtotals (A+B)                                  1           132
C               For which a management decision                  0              0
                was made during the period
      (i)       Dollar value of recommendations that             0              0
                were agreed to by management
            -   Based on proposed management                     0              0
                action
            -   Based on proposed legislative action             0              0
      (ii)      Dollar value of recommendations that             0              0
                were not agreed to by management
D               For which no management decision
                has been made by the end of the
                                                                 1           132
                reporting period
                Reports for which no management
                decision was made within six months
                                                                 1           132
                of issuance




S E C U R I T I E S & E X C H AN G E C O M M I S S I O N                AP R I L 2 9 , 2 0 0 5
                                                                                PAGE 13




           Reports with No Management Decisions
A management decision has not yet been made on our recommendation that $132,000 be
put to better use (Audit No. 376, Telephone Card Program, summarized in a previous semi-
annual report).



                     Revised Management Decisions
No management decisions were revised during the period.



           Agreement with Significant Management
                         Decisions
The Office of Inspector General agrees with all significant management decisions regarding
audit recommendations.




S E C U R I T I E S & E X C H AN G E C O M M I S S I O N               AP R I L 2 9 , 2 0 0 5
                   MANAGEMENT RESPONSE OF
           THE SECURITIES AND EXCHANGE COMMISSION
 ACCOMPANYING THE SEMIANNUAL REPORT OF THE INSPECTOR GENERAL
      FOR THE PERIOD OCTOBER 1, 2004 THROUGH MARCH 31, 2005


Introduction

The Semiannual Report of the Inspector General (IG) of the Securities and Exchange
Commission (SEC) was submitted to the Chairman on April 29, 2005 as required by the
Inspector General Act of 1978, as amended. The report has been reviewed by the Managing
Executive for Operations, Executive Director, General Counsel, and Director of the Division of
Enforcement. The Management Response is based on their views and consultation with the
Chairman.

The Management Response is divided into four sections to reflect the specific requirements
listed in Section 5(b) of the Inspector General Act of 1978, as amended.

                                       Section I
                  Comments Keyed to Significant Sections of the IG Report

A. Audit Program

     During the reporting period, the IG issued ten audit reports, one special project report.
     Management generally concurred with the findings and recommendations in the IG’s
     reports.

     In addition to audits performed by the agency’s IG, the Government Accountability Office
     (GAO) actively reviewed program and administrative functions of the SEC. A complete
     listing of all GAO audit activity involving the SEC is attached as Appendix A.

B.   Response to Significant Problems

     No new significant problems were identified by the IG during this reporting period.

C. Response to Significant Problems Previously Identified

     Financial Management System Controls

     The IG’s Semiannual Report continues to identify the financial management exceptions
     reported in both the SEC’s Federal Managers’ Financial Integrity Act certification and a
     contractor’s audit of Commission financial management system controls as a significant
     problem for the Commission. Most of the recommendations have been addressed in
     preparation for the Commission’s financial statement audit. For example, the
     recommendations to strengthen internal controls and financial reporting on sensitive and
   accountable property have been implemented. A brief description of recent SEC actions to
   strengthen IT security and accounting and control for disgorgement funds follows.

       •   The SEC continues to make progress in its IT security program. Over the past
           several months, the Office of Information Technology (OIT) has been working
           internally as well as consulting with the GAO to develop an action plan to further
           strengthen the agency’s information security program. In addition, among other
           things, the office has established a certification and accreditation team, which is
           performing certifications on major Commission applications, and has developed
           and implemented an integrated security monitoring capability and a detailed
           remediation plan to address a series of known security issues uncovered during a
           recent GAO audit. By June 2006, the SEC will implement corrective actions for
           specific control weaknesses in the IT security area according to a quarter-by-quarter
           timeline.

       •   With respect to accounting and controls for disgorgement funds, the SEC has made
           significant progress in this area and continuing efforts to strengthen these operations
           remains an important programmatic and financial management initiative. During
           fiscal 2005 the staff will complete a comprehensive review of files and data and
           review and strengthen policies and procedures. It is anticipated that consistent
           application of strengthened internal controls and potentially some limited redesign
           of the program’s existing management information system will be adequate to
           resolve the weakness in fiscal 2006. However, replacement of the current system
           and a more thorough reexamination of the relevant business processes will provide
           more effective assurance, and in fiscal 2006 the SEC will complete a requirements
           analysis as the first phase of the multi-year project to replace the system.

   Information Resources Management

   SEC management continues to make progress in its information resources management
   program. During the reporting period, among other things, OIT instituted (1) an IT policy
   framework to facilitate implementing, managing, and enforcing SEC-wide and OIT-specific
   IT governance responsibilities, workflows, and activities and (2) an integrated IT capital
   planning and investment control process to facilitate program-oriented budgeting, program
   planning and execution, and performance measurement.

D. IG Recommendations Concerning Use of Funds

   On November 17, 2003, the IG issued a report concerning the Commission’s telephone card
   program. During the review, the IG found that the General Services Administration had
   incorrectly billed the Commission approximately $132,000 for unused telephone lines. The
   SEC’s Office of Financial Management followed up on this matter and determined that
   equipment and programming changes requested by the SEC caused the increase in the cost
   of service. No refund is due to the Commission.

                                              2
E.   Reports with No Management Decisions

     Management decisions have been made on all audits issued prior to the beginning of the
     reporting period (October 1, 2004).

F.   Revised Management Decisions

     No management decisions were revised during the reporting period.




                                               3
SEC Management Response to
Semiannual IG Report
October 1, 2004 – March 31, 2005


                                          SECTION II
                                       Disallowed Costs
                                      As of March 31, 2005


                                                                      Dollar Value
                                                             Number   (in thousands)

A.    For which final action has
      not been taken by the
      commencement of the
      reporting period                                        0              $0

B.    On which management decisions
      were made during the reporting
      period                                                  0              $0

      (Subtotal A+B)                                          0              $0

C.    For which final action was
      taken during the reporting
      period                                                  0              $0

      (i)    Recovered by management                          0              $0

      (ii)   Disallowed by management                         0              $0

D.    For which no final action has
      been taken by the end of the
      reporting period                                        0              $0




                                               4
SEC Management Response to
Semiannual IG Report
October 1, 2004 – March 31, 2005


                                          SECTION III
                                     Funds Put to Better Use
                                      As of March 31, 2005


                                                                  Dollar Value
                                                         Number   (in thousands)

A.    For which final action has
      not been taken by the
      commencement of the
      reporting period                                     0             $0

B.    On which management decisions
      were made during the reporting
      period                                               0             $0

C.    For which final action was
      taken during the reporting
      period:

      (i)    Dollar value of recom-
             mendations that were
             agreed to by management                       0             $0

      (ii)   Dollar value of recom-
             mendations that management
             has subsequently concluded
             should/could not be
             implemented or completed                      1             $132

D.    For which no final action has been
      taken by the end of the reporting period             0             $0




                                                 5
                                                                                 SEC Management Response to
                                                                                 Semiannual IG Report
                                                                                 October 1, 2004 – March 31, 2005

                                                  SECTION IV
                                      Open Audit Reports Over One Year Old
                                             As of March 31, 2005


                                         Funds Put to
                                           Better Use         Questioned Costs
Audit #   Audit Title        Issued      (in thousands)        (in thousands)    Reason Final Action Not Taken

220       IRM Planning and
          Execution          3/26/1996       $0                     $0           New staff members are onboard and
                                                                                 currently reviewing and revising,
                                                                                 as appropriate, all IT-related
                                                                                 policies. A capstone IRM regulation
                                                                                 is expected to be developed by
                                                                                 calendar year-end.

243       SECOA Local Area
          Network            3/21/1997       $0                     $0           A major effort is underway to certify and
                                                                                 accredit existing major applications and
                                                                                 general support systems. This effort is
                                                                                 expected to be completed in 2006.




                                                          6
                                                                                          SEC Management Response to
                                                                                          Semiannual IG Report
                                                                                          October 1, 2004 – March 31, 2005

                                                           SECTION IV
                                               Open Audit Reports Over One Year Old
                                                      As of March 31, 2005


                                                 Funds Put to
                                                   Better Use          Questioned Costs
Audit #   Audit Title               Issued       (in thousands)         (in thousands)     Reason Final Action Not Taken

257       Client Server             9/9/1997         $0                      $0            See explanation for audit #220 above.

309       Telecommunications
          Vulnerabilities           3/31/2000        $0                      $0            Responsibility for telecommunications
                                                                                           security has been reassigned to the Office
                                                                                           of Information Technology. A baseline scan
                                                                                           of telecommunications security will be
                                                                                           conducted in August. The scan will be
                                                                                           evaluated against policies and procedures.
                                                                                           Needed improvements will be completed in
                                                                                           fiscal 2006.

320       General Computer Controls 12/26/2000         $0                    $0            The recommendations are being addressed
                                                                                           as part of the remediation efforts underway
                                                                                           as a result of the audit of the SEC’s financial
                                                                                           statements.

                                                                                          SEC Management Response to
                                                                   7
                                                                                      Semiannual IG Report
                                                                                      October 1, 2004 – March 31, 2005

                                                       SECTION IV
                                           Open Audit Reports Over One Year Old
                                                  As of March 31, 2005


                                              Funds Put to
                                                Better Use         Questioned Costs
Audit #   Audit Title             Issued      (in thousands)        (in thousands)     Reason Final Action Not Taken

327       General Computer
          Controls—Regions        2/28/2001       $0                     $0            See explanation for audit #220.

330       Real Property Leasing   5/31/2001       $0                     $0            The revised leasing regulation is being
                                                                                       reviewed by the Office of General
                                                                                       Counsel.

337       IT Project Management   1/24/2002       $0                     $0            The Office of Information Technology
                                                                                       has partnered with George Washington
                                                                                       University to develop a more advanced
                                                                                       methodology for performance acquisition
                                                                                       analysis. Efforts are underway to collect
                                                                                       baseline data.




                                                               8
                                                                                          SEC Management Response to
                                                                                          Semiannual IG Report
                                                                                          October 1, 2004 – March 31, 2005

                                                           SECTION IV
                                               Open Audit Reports Over One Year Old
                                                      As of March 31, 2005


                                                 Funds Put to
                                                   Better Use          Questioned Costs
Audit #   Audit Title               Issued       (in thousands)         (in thousands)     Reason Final Action Not Taken

346       Commission Oversight of
            NAFI                    3/7/2002           $0                   $0             A policy document concerning the
                                                                                           Recreation and Welfare Association is
                                                                                           being reviewed by the Office of General
                                                                                           Counsel.

350       Administration of IT
          Contracts                 8/28/2002          $0                    $0            See explanation for audit #337.

351       EDGAR Utility to
          Commission Staff          1/15/2003          $0                    $0            Post-acceptance corrections will be
                                                                                           addressed in 2005. The outcome will
                                                                                           become part of the requirements for a
                                                                                           follow-on contract, which should be signed
                                                                                           in 2006.



                                                                   9
                                                                                            SEC Management Response to
                                                                                            Semiannual IG Report
                                                                                            October 1, 2004 – March 31, 1005


                                                            SECTION IV
                                                Open Audit Reports Over One Year Old
                                                       As of March 31, 2005


                                                Funds Put to
                                                  Better Use          Questioned Costs
Audit #   Audit Title               Issued      (in thousands)         (in thousands)    Reason Final Action Not Taken

353       Regional Telecommuni-
          cations Security          8/20/2002       $0                      $0           See explanation for audit #309.

354       Broker-dealer Risk
          Assessment Program        8/13/2002         $0                    $0           The SEC’s risk assessment rules are being
                                                                                         revised to better reflect the current state of
                                                                                         the industry and target those firms posing
                                                                                         risks to investors and the broader financial
                                                                                         financial system.

361       Commission Web Security   9/30/2002         $0                    $0           See explanation for audit #320.




                                                                 10
                                                                                          SEC Management Response to
                                                                                          Semiannual IG Report
                                                                                          October 1, 2004 – March 31, 2005

                                                          SECTION IV
                                              Open Audit Reports Over One Year Old
                                                     As of March 31, 2005


                                                 Funds Put to
                                                   Better Use          Questioned Costs
Audit #   Audit Title                Issued      (in thousands)         (in thousands)    Reason Final Action Not Taken

362       Financial Management
          System Controls            3/27/2003         $0                    $0           See explanation for #320.

365       IT Capital Investment
          Decision-making Followup   3/29/2004         $0                    $0           A charter for the SEC’s Capital Planning
                                                                                          Committee and several policy documents
                                                                                          are being reviewed by the Office of
                                                                                          General Counsel.
368       SEC Recreation and
          Welfare Asso. Financial
          Management                 7/31/2003         $0                    $0           See explanation for audit #346.

371       Small Business Reg D
          Exemption Process          3/31/2004         $0                    $0           Most of the recommendations have
                                                                                          been implemented. The two remaining
                                                                                          recommendations are being addressed
                                                                                          as part of a rulemaking initiative.

                                                                  11
                                                                                         SEC Management Response to
                                                                                         Semiannual IG Report
                                                                                         October 1, 2004 – March 31, 2005

                                                        SECTION IV
                                            Open Audit Reports Over One Year Old
                                                   As of March 31, 2005


                                                Funds Put to
                                                  Better Use          Questioned Costs
Audit #   Audit Title              Issued       (in thousands)         (in thousands)       Reason Final Action Not Taken

372       Regulation of Public
          Utility Companies        10/20/2003         $0                    $0              The staff is evaluating the legal
                                                                                            implications of posting certain
                                                                                            information on a public website.

376       Telephone Card Program   11/17/2003         $0                    $0              The audit findings and recommendations
                                                                                            are being reviewed in light of recent
                                                                                            changes to the SEC’s telecommunications
                                                                                            program.

377       Lost and Stolen
          Securities Program       3/31/2004          $0                    $0              Certain issues related to the program are
                                                                                            under review by the LSSP Advisory
                                                                                            Board.

M22       Rural Office Location
          Policy                   3/28/2002          $0                    $0              See explanation for #330.

                                                                 12
                                                                                            SEC Management Response to
                                                                                            Semiannual IG Report
                                                                                            October 1, 2004 – March 31, 2005

                                                           SECTION IV
                                               Open Audit Reports Over One Year Old
                                                      As of March 31, 2005


                                                   Funds Put to
                                                     Better Use          Questioned Costs
Audit #   Audit Title                 Issued       (in thousands)         (in thousands)       Reason Final Action Not Taken

M27       NRSI Password
          Management                  1/29/2003          $0                    $0              See explanation for audit #361.

M30       Rural Relocation Policy--
          Followup                    6/19/2003          $0                    $0              See explanation for #330.


M33       Unclaimed Commission
          Property                    11/12/2003         $0                    $0              Efforts are underway to determine
                                                                                               whether there are any legal restrictions
                                                                                               to implementing the one remaining
                                                                                               recommendation.




                                                                    13
                                                                                            SEC Management Response to
                                                                                            Semiannual IG Report
                                                                                            October 1, 2004 – March 31, 2005

                                                            SECTION IV
                                                Open Audit Reports Over One Year Old
                                                       As of March 31, 2005


                                                   Funds Put to
                                                     Better Use          Questioned Costs
Audit #   Audit Title                  Issued      (in thousands)         (in thousands)       Reason Final Action Not Taken

M35       Commission-wide Use of
          X-Ray Scanners               2/10/2004         $0                    $0              Funds have been budgeted for more
                                                                                               training later this year on the use of the
                                                                                               x-ray machines.

M36       Priority to Rural Areas of
          New Offices                  3/29/2004         $0                    $0              See explanation for audit #M22.




                                                                    14
                                                                   APPENDIX A


                       Government Accountability Office Audit Activity
                      Involving the Securities and Exchange Commission


Reports Completed During the Reporting Period

1.     Financial Regulation: Industry Changes Prompt Need to Reconsider U.S. Regulatory
       Structure, GAO-05-61 (10/2004)

2.     Loan Commitments: Issues Related to Pricing, Trading, and Accounting, GAO-05-131
       (2/2005)

3.     Tax Shelters: Services Provided by External Auditors, GAO-05-171 (2/2005)

4.     Credit Reporting Literacy: Consumers Understood the Basics but Could Benefit from
       Targeted Educational Efforts, GAO-05-223 (3/2005)

5.     Information Security: Securities and Exchange Commission Needs to Address Weak
       Controls Over Financial and Sensitive Data, GAO-05-262 (3/2005)

6.     Securities and Exchange Commission Human Capital Survey, GAO-05-118R (11/2004)


Projects Active as of March 31, 2005

1.   Workforce Planning (250234). A review of the SEC’s strategic workforce planning efforts,
     including the extent to which SEC has (1) established a workforce planning process that is
     aligned with its mission and programmatic goals and (2) developed and implemented long-
     term strategies for acquiring, developing, and retaining staff necessary to achieve these
     goals.

2.   Social Security Numbers and Third Party Contracting (130395). A review of the uses and
     protections of social security numbers.

3.   Whois Database (310724). A study to (1) determine the prevalence of patently false
     contact data in the Whois database for “legacy” generic top-level domains, (2) report the
     steps the Commerce Department and the Internet Corporation for Assigned Names and
     Numbers have taken to ensure the accuracy of contact data in the database, and (3)
     determine whether tools and technologies are available to help reduce the amount of false
     information that is entered into the database.

4.   Industrial Loan Corporations (250202). To enrich its analysis of industrial loan
     corporations, GAO is consulting with SEC to obtain an understanding of the supervision of
     securities firms and their holding companies.

5.   Military Insurance Sales (250166). A review of the financial products that are commonly
     marketed to military service members, the regulatory oversight associated with marketing
     and sale of these products on military installations, the regulatory oversight and consumer
      protections afforded military personnel compared to those afforded the general public, and
      how regulators assess the suitability of such products.

6.    Pay Systems (842157). A review of public and private sector organizations’ experiences in
      designing and implementing pay systems that are intended to be performance-based and
      market sensitive. Through meetings with SEC, GAO plans to determine if SEC’s pay
      system could be used as a possible example to illustrate how a specific design or
      implementation issue is being addressed.

7.    Student Loan Repayment Program (450338). An examination of the reasons selected
      agencies are using or not using the program, how the agencies view the benefits of the
      program compared to other recruitment and retention flexibilities, how the program is
      being administered, and the results and lessons learned, if any from using the program.

8.    EEO Leadership Survey (450307). A government-wide survey of (1) how agencies are
      structured to meet EEO, affirmative employment and workforce diversity requirements, (2)
      the extent to which human capital and EEO managers perceive that these requirements
      contribute to EEO, affirmative employment, and workforce diversity objectives, and (3)
      how human capital and EEO managers view the guidance and feedback central leadership
      agencies provide.

9.    Information Security (250218). GAO is completing assessments at key financial market
      organizations of the information security used to control access to important information
      networks and systems. After completing the assessments, GAO plans to brief SEC on its
      findings and to provide SEC with an opportunity to comment on any products it prepares.

10.   Federal Energy Programs (360415). A review of how the Federal Government is working
      to meet the nation’s energy needs. GAO’s contact with SEC will focus on issues relating to
      oversight of the Public Utility Holding Company Act and any involvement SEC has had
      with the National Energy Policy.

11.   Effects of Sarbanes-Oxley on Small Business (250224). A review of (1) the effects of the
      Act on small companies, (2) the extent to which financial institutions and states are
      requiring small privately-held companies to comply with provisions of the Act and the
      corresponding impacts, and (3) the impact, if any, the Act has had on small accounting and
      auditing firms.

12.   Disgorgement and Fines (250214). A follow-up on the status of various reform efforts,
      such as the SEC’s efforts in improving and managing the disgorgements and fines data
      tracking system, and the status of collection rates. Also, an assessment of what extent the
      SEC has implemented Section 308 (Fair Funds Provision) of the Sarbanes-Oxley Act, and
      any other legislative or regulatory actions that assist efforts to collect penalties and
      disgorgements.



                                                2
13.   Global Social Responsibility (320271). A study of (1) the definition of corporate social
      responsibility and global corporate social responsibility, (2) the role, if any, that federal
      agencies have in promoting or monitoring global corporate social responsibility, and (3)
      whether federal programs or policies either promote or undermine U.S. company global
      corporate social responsibility efforts.

14.   PUHCA (250213). A review of the SEC’s administration and enforcement of the Public
      Utility Holding Company Act of 1935. Specifically, an assessment of the Office of Public
      Utility Regulation’s processes for reviewing claims of exemptions, assessing registered
      holding companies, and issuing no-action letters, and how the Commission determines
      whether companies exert controlling influence over a public utility holding company.

15.   Tax Treatment of Large Settlements (450296). A review of the tax treatment of large
      settlements reached by federal regulatory and oversight agencies.

16.   Trading Abuse Detection (250200). A review of the information systems and methods
      securities regulators could use to detect late trading and market timing in mutual fund
      shares.

17.   Mutual Fund Enforcement (250199). A review of the SEC’s enforcement activities and
      capabilities related to the mutual fund industry.

18.   Decimalization (250195). A review of the impact decimalization has had on the securities
      markets, securities market participants, and institutional and retail investors.

19.   Mutual Fund Inspections (250185). A review to determine whether the scope and conduct
      of broker inspections is adequate with respect to the sales of mutual funds and other issues
      relating to broker-dealer sales of mutual funds.

20.   Implementation of USA Patriot Act’s Anti-money Laundering Provisions (250179). A
      review of (1) the status of implementation of sections 326 and 314, (2) the Treasury’s and
      regulators’ procedures for assessing compliance and enforcement, (3) plans to sustain
      efforts to educate the industry about the new regulations, and (4) extent to which regulators
      have revised examination guidance and applied it.

21.   Career Appointments of Former Political Appointees (450274). A government-wide
      review of executive branch agencies and departments to assess career appointments of
      former political appointees.

22. FY 2004 Financial Statement Audit (198241). An audit of the SEC’s fiscal year 2004
    financial statements.




                                                  3
